<html>
<title> - HUMAN TRAFFICKING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                           HUMAN TRAFFICKING

=======================================================================

                               EXCERPTED

                                from the

                           2011 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         Available via the World Wide Web: http://www.cecc.gov







                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-188 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     JEFF MERKLEY, Oregon
                                     SUSAN COLLINS, Maine
                                     JAMES RISCH, Idaho

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)
                           Human Trafficking

                                Findings

        <bullet> China remains a country of origin, transit, 
        and destination for the trafficking of men, women, and 
        children. The majority of human trafficking cases are 
        domestic and involve trafficking for sexual 
        exploitation, forced labor, and forced marriage.
        <bullet> The Chinese government acceded to the UN 
        Protocol to Prevent, Suppress and Punish Trafficking in 
        Persons, Especially Women and Children (Palermo 
        Protocol) in December 2009. To date, the Chinese 
        government has revised some, but not all, of its 
        legislation to conform to the Palermo Protocol. For 
        example, the Chinese government issued an amendment to 
        the PRC Criminal Law, which included revisions that 
        broaden the scope of prosecutable offenses for forced 
        labor and increase penalties, but do not clearly define 
        forced labor. The Chinese government's legal definition 
        of trafficking does not conform to international 
        standards.
        <bullet> Using the definition of human trafficking 
        under Chinese law--which conflates human smuggling, 
        child abduction, and illegal adoption with human 
        trafficking--the Supreme People's Court reportedly 
        convicted 3,138 defendants in trafficking cases in 
        2010, up from 2,413 in 2009. Of these, courts 
        reportedly handed down 2,216 prison sentences of five 
        years or more. In addition, the Supreme People's 
        Procuratorate reportedly convicted 4,422 individuals on 
        trafficking-related crimes in 2010. In cooperation with 
        non-governmental organizations and international 
        organizations, Chinese authorities took steps to 
        improve protection, services, and care for victims of 
        trafficking but continued to focus efforts on women and 
        children.
        <bullet> The Chinese government does not offer legal 
        alternatives to deportation for identified foreign 
        victims of trafficking, and continues to deport North 
        Korean refugees under the classification of ``economic 
        migrants,'' regardless of whether or not they are 
        victims of trafficking.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Urge the Chinese government to abide by its 
        commitments under the UN Protocol to Prevent, Suppress 
        and Punish Trafficking in Persons, Especially Women and 
        Children; continue to revise the government's 
        definition of trafficking; and enact comprehensive 
        anti-trafficking legislation to align with 
        international standards.
        <all> Call on the Chinese government to provide more 
        services for trafficking victims. Support expanding 
        training programs for law enforcement personnel and 
        shelter managers that help raise awareness and improve 
        processes for identifying, protecting, and assisting 
        trafficking victims. Support legal assistance programs 
        that advocate on behalf of both foreign and Chinese 
        trafficking victims.
        <all> Object to the continued deportation of North 
        Korean trafficking victims as ``economic migrants.'' 
        Urge the Chinese government to abide by its 
        international obligations with regard to North Korean 
        trafficking victims and provide legal alternatives to 
        repatriation.

                              Introduction

    The Chinese government took steps to combat human 
trafficking during the Commission's 2011 reporting year, but 
challenges remain. Multiple factors shape the context of the 
ongoing human trafficking problem in China, including the 
government's population planning policies and their 
exacerbation of China's skewed sex ratio; migrant mobility; 
uneven enforcement of anti-trafficking laws; lack of anti-
trafficking training, education, and resources; and government 
corruption. In addition, officials in the past year continued 
to focus on the abduction and sale of women and children,\1\ 
while giving proportionally less attention to other forms of 
trafficking. The government's limited capacity restricts the 
number of trafficking victims that can access official 
protection, services, and care. The National People's Congress 
Standing Committee passed amendments to the PRC Criminal Law in 
February 2011, including new language which, if implemented, 
may strengthen prosecution and punishment of forced labor 
cases. Authorities reported taking action to combat trafficking 
in the 2011 reporting year. Gaps between domestic legislation 
and international standards remain and continue to limit the 
scope and effectiveness of anti-trafficking efforts.

                      Anti-Trafficking Challenges

    The Chinese government acceded to the UN Protocol to 
Prevent, Suppress and Punish Trafficking in Persons, Especially 
Women and Children (Palermo Protocol) in December 2009,\2\ but 
it has not revised current domestic legislation to come into 
full compliance. The PRC Criminal Law prohibits the trafficking 
of persons, which it defines as ``abducting, kidnapping, 
buying, trafficking in, fetching, sending, or transferring a 
woman or child, for the purpose of selling the victim.'' \3\ 
The law does not provide definitions for these concepts. The 
PRC Criminal Law separately prohibits forced prostitution,\4\ 
but it does not make clear whether minors under 18 years of age 
who are engaged in prostitution may be considered victims of 
trafficking, regardless of the use of force. Chinese law does 
not clearly prohibit non-physical forms of coercion-including 
debt bondage and threats-or the recruitment, provision, or 
attainment of persons for forced prostitution,\5\ which are 
covered under Article 3 of the Palermo Protocol.\6\ The Chinese 
government's differing definition of human trafficking has 
negative implications for anti-trafficking work in China, 
including limiting the Chinese government's prosecution 
efforts, protection of victims, and victim services.\7\ It is 
unclear whether the Chinese government's definition of human 
trafficking also has negative implications for program funding, 
as fiscal information on programs is not publicly available.
    Chinese officials continue to conflate human trafficking 
with human smuggling and therefore treat some victims of 
trafficking as criminals, although recent law enforcement 
efforts have sought to reduce this.\8\ According to the UN 
Office on Drugs and Crime, the main international body 
responsible for implementing the Palermo Protocol, human 
trafficking and migrant smuggling differ with respect to 
consent, exploitation, transnationality, and source of 
profit.\9\ Commonly, human trafficking involves the 
exploitation of an individual (either domestically or across 
borders) for forced labor or prostitution without the 
individual's consent, whereas migrant smuggling involves the 
cross-border transport of an individual with the individual's 
consent and for direct or indirect profit resulting from the 
transport.\10\ In conflating the two, Chinese officials may 
consider an individual's illegal entry into China to be a crime 
of ``human smuggling'' and punish the individual accordingly, 
while giving less consideration to the role exploitation may 
have played in the border crossing.\11\ The Chinese government 
continues to deport all undocumented North Koreans as illegal 
``economic migrants'' and does not provide legal alternatives 
to repatriation for identified foreign victims of 
trafficking.\12\ [For more information, see Section II--North 
Korean Refugees in China.] Reports from the 2011 reporting year 
indicate that official corruption and lack of resources in some 
areas also continue to deter or limit anti-trafficking efforts 
and exacerbate the trafficking problem.\13\

                               Prevalence

    China remains a country of origin, transit, and destination 
for the trafficking of men, women, and children.\14\ The 
majority of trafficking cases are domestic; \15\ however, human 
traffickers continue to traffic Chinese women and children from 
China to countries around the world.\16\ Women and girls from 
countries across Asia, as well as some countries in Europe and 
Africa, are also trafficked into China and forced into 
marriages, employment, and sexual exploitation.\17\ Forced 
labor continues, and certain cases gained widespread media 
attention during this reporting year; \18\ however, the full 
extent of the forced labor problem in China is unclear.\19\ 
[See Section II--Worker Rights for more information on child 
labor.] According to the Palermo Protocol, forced labor of any 
person under 18 years of age constitutes ``trafficking in 
persons.'' \20\

                            Driving Factors

    Experts link the reported growth \21\ of the trafficking 
market in China to several political, demographic, economic, 
and social factors. Reports indicate that China's skewed sex 
ratio,\22\ which is increasing against the backdrop of China's 
population planning policies and Chinese families' preference 
for sons,\23\ has increased the demand for trafficking for 
forced marriage and commercial sexual exploitation.\24\ In 
recent years, domestic and international observers have also 
linked the growing trafficking market with the lack of 
awareness and education on trafficking prevention for 
vulnerable women and parents \25\ and conditions in bordering 
countries such as instability in Burma and poverty in the 
Democratic People's Republic of Korea.\26\ [For additional 
information on China's skewed sex ratio, see Section II--
Population Planning.]

------------------------------------------------------------------------
  Representative Human Trafficking Cases  From the 2011 Reporting Year
-------------------------------------------------------------------------
<bullet>  In December 2010, authorities detained an official from a
 government-funded homeless shelter for his alleged involvement in a
 forced labor scheme.\27\ The official allegedly sold 11 workers, 8 of
 whom reportedly had disabilities, to a building materials factory in
 the Xinjiang Uyghur Autonomous Region (XUAR), where they were held and
 forced to work for at least three years without pay or protective
 gear.\28\

<bullet>  Also in December, authorities detained a brick kiln employer
 in Shaanxi province on charges of forced labor after he brought people
 in who were mentally ill, deaf, mute, disabled, or otherwise vulnerable
 to exploitation.\29\ Authorities reportedly rescued 18 workers from the
 brick kiln.\30\

<bullet>  Despite a 2008 XUAR Department of Education circular stating
 that students enrolled in elementary and junior high school would no
 longer participate in work-study activities to pick cotton, a number of
 Chinese media and government reports from the 2011 reporting year
 indicate that authorities in the XUAR continued to implement work-study
 programs in 2009 and 2010 that required school-age students to pick
 cotton and engage in other forms of labor.\31\ [See Section IV--
 Xinjiang for more information on these programs.]

<bullet>  Individuals continued to force children to work in
 exploitative conditions as child beggars.\32\ In one incident reported
 in February 2011, a man in Henan province ``rented out'' his daughter
 for 5,000 yuan (US$774) to an ``acrobatic troupe'' and discovered three
 years later that the eight-year-old had been made to beg and was
 physically abused.\33\ In another incident reported in August, a man in
 the XUAR sold his 12-year-old daughter to a group who trained her to
 pickpocket. When she was ``rescued and sent back home,'' the man
 reportedly sold her again to a different pickpocketing group.\34\

<bullet>  Authorities in the XUAR announced plans in April 2011 for a
 nationwide campaign to locate and retrieve children from the XUAR who
 are ``strays'' and in some cases ``steal or beg for a living.'' \35\
------------------------------------------------------------------------

                        Anti-Trafficking Efforts

    The Chinese government, non-governmental organizations, and 
individuals continued efforts to combat human trafficking 
during the Commission's 2011 reporting year. As reported in the 
Commission's 2010 Annual Report, in December 2009, the National 
People's Congress Standing Committee (NPCSC) approved China's 
accession to the UN Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children (Palermo 
Protocol).\36\ On February 25, 2011, the NPCSC revised the PRC 
Criminal Law, making amendments to provisions on forced labor 
\37\--a crime that constitutes human trafficking under the 
Palermo Protocol.\38\ The revised legislation broadens the 
scope of activity considered punishable for forced labor and 
strengthens punishments for ``serious'' crimes of forced labor; 
however, the legislation still does not clearly define what 
constitutes forced labor.\39\ [See box titled Strengthened 
Legislation on Forced Labor below.] The Commission did not 
observe changes to other areas in which China's domestic 
legislation does not comply with the Palermo Protocol during 
the 2011 reporting year.\40\

------------------------------------------------------------------------
                Strengthened Legislation on Forced Labor
-------------------------------------------------------------------------
  The National People's Congress Standing Committee passed amendments to
 the PRC Criminal Law in February 2011, which included additions to
 provisions on trafficking in Article 244.\41\ The revised provisions,
 if properly implemented, may strengthen prosecution and punishment of
 forced labor cases:

<bullet>  Widened scope of punishable persons. The new provision expands
 the scope of responsibility from ``employer'' to ``whoever forces
 another to work . . . .'' In addition, the new provision adds language
 that provides a basis for punishing anyone who is ``aware of a person
 committing the crime . . . and recruits or transports personnel for
 him, or otherwise aids forced labor.'' \42\ This added language, if
 implemented, may strengthen prosecution and punishment of middlemen,
 transporters, and recruiters.

<bullet>  Lengthened prison sentences. The revised provision provides
 for a maximum three-year imprisonment for forced labor situations that
 are not considered ``serious.'' This period of time was unclear prior
 to revisions. The new provision also provides for longer prison
 sentences (three to seven years, an increase from the former maximum of
 three years) for forced labor crimes that are considered ``serious.''
 \43\ While the term ``serious'' is not clearly defined, this revised
 language, if implemented, may result in harsher punishments for those
 convicted of forced labor crimes.
------------------------------------------------------------------------

    Chinese authorities, in cooperation with non-governmental 
organizations and international organizations, took steps to 
improve protection, services, and care for victims of 
trafficking but continued to focus such efforts only on women 
and children identified as victims through the government's 
definition of trafficking. The International Organization on 
Migration and the Ministry of Civil Affairs conducted two 
training sessions during the Commission's 2011 reporting year 
that reportedly addressed issues including victim 
identification, protection, and assistance.\44\ According to 
the U.S. State Department, the All-China Women's Federation 
(ACWF) is in the process of starting a network of shelters for 
women. At these shelters, women reportedly may access referrals 
for legal aid, report human trafficking violations, and seek 
assistance from social workers.\45\ In addition, in September 
2010, Minister of Public Security Meng Jianzhu and Vietnamese 
Minister of Public Security Le Hong Anh signed a cooperative 
agreement to work together on trafficking prevention and 
control.\46\
    The Chinese government continued outreach and education 
campaigns in concert with the ACWF and international 
organizations. The government continued trafficking education 
campaigns in areas with high numbers of migrant workers, 
including train and bus stations, and through television, cell 
phones, and the Internet, informing workers of their 
rights.\47\ Chinese authorities established nationwide and 
local hotlines for reporting suspected trafficking cases,\48\ 
although there appears to be limited public data on their use.
    As the Chinese government continues to conflate human 
smuggling, illegal adoption, and child abduction with human 
trafficking, accurate statistics on the number of trafficking 
cases the government investigated and prosecuted during the 
past reporting year are not available.\49\ Using the definition 
of human trafficking under Chinese law, the Supreme People's 
Court reportedly convicted 3,138 defendants in trafficking 
cases in 2010,\50\ up from 2,413 in 2009,\51\ and of those 
convicted, authorities reportedly handed down 2,216 prison 
sentences for terms of five years or more.\52\ In addition, the 
Supreme People's Procuratorate prosecuted 4,422 individuals for 
trafficking offenses,\53\ up from 4,017 in 2009.\54\
    The U.S. State Department placed China on its Tier 2 Watch 
List for the seventh consecutive year in 2011,\55\ listing 
several areas in which anti-trafficking efforts were 
insufficient, including that the Chinese government ``does not 
fully comply with the minimum standards for the elimination of 
trafficking'' and ``did not demonstrate evidence of significant 
efforts to address all forms of trafficking or effectively 
protect victims.'' \56\


                         civil society efforts


    Individual citizens have also been active in the effort to 
combat human trafficking. One individual's anti-trafficking 
efforts on an Internet blog launched during the 2011 reporting 
year have received widespread attention.\57\ While the combined 
efforts of the individual, the blog's photograph contributors, 
and a number of government agencies have resulted in the 
``rescue'' of at least six abducted children,\58\ the online 
campaign has also raised concerns regarding the privacy of the 
children being photographed,\59\ potential for publicly 
misidentifying children as abducted,\60\ and the risk that 
traffickers might inflict further harm on their victims if they 
find pictures of them posted publicly.\61\

                                Endnotes

    \1\ The specific phrase used to describe the concept of trafficking 
in Chinese government documents, including the National Plan of Action 
on Combating Trafficking in Women and Children (2008-2012), as well as 
related regulations, circulars, and opinions, is guaimai funu ertong, 
which literally means ``the abduction and sale of women and children.'' 
See, for example, State Council General Office, ``Circular on the State 
Council General Office's Issuance of China's National Plan of Action on 
Combating Trafficking in Women and Children (2008-2012)'' [Guowuyuan 
bangongting guanyu yinfa zhongguo fandui guaimai funu ertong xingdong 
jihua (2008-2012 nian) de tongzhi], 13 December 07; See also Ministry 
of Public Security, ``Qinghai Province Implementing Rules and 
Regulations for the Plan of Action on Combating Trafficking in Women 
and Children (2008-2012)'' [Qinghai sheng fandui guaimai funu ertong 
xingdong jihua shishi xize (2008-2012 nian)], 22 December 09; Ministry 
of Public Security, Zhuzhou Municipal People's Government, ``Zhuzhou 
Municipal People's Government Office Circular Regarding the Issuance of 
Zhuzhou Municipality's Action Plan on Combating Trafficking in Women 
and Children'' [Zhuzhou shi renmin zhengfu bangongshi guanyu yinfa 
zhuzhou shi fandui guaimai funu ertong xingdong jihua de tongzhi], 31 
December 09; Bazhong Municipal People's Government, ``Opinion of 
Bazhong Municipal People's Government Office Regarding the 
Implementation of the China National Action Plan on Combating 
Trafficking in Women and Children (2008-2012)'' [Bazhong shi renmin 
zhengfu bangongshi guanyu guanche guowuyuan ``zhongguo fandui guaimai 
funu ertong xingdong jihua (2008-2012 nian)'' de shishi yijian], 30 
September 09.
    \2\ ``China's Top Legislature Ends Bimonthly Session, Adopts Tort 
Law,'' Xinhua, 26 December 09; UN Protocol to Prevent, Suppress and 
Punish Trafficking in Persons, Especially Women and Children, 
Supplementing the United Nations Convention Against Transnational 
Organized Crime, adopted 15 November 00, entered into force 25 December 
03. This protocol is commonly referred to as the Palermo Protocol 
because it was adopted in Palermo, Italy, in 2000.
    \3\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, effective 1 October 97, amended 14 March 97, 25 December 99, 
31 August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 
06, 28 February 09, 25 February 11, art. 240.
    \4\ Ibid., art. 358.
    \5\ See also Office To Monitor and Combat Trafficking in Persons, 
U.S. Department of State, ``Trafficking in Persons Report 2011--
China,'' 27 June 11, 122.
    \6\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the UN Convention 
Against Transnational Organized Crime (Palermo Protocol), adopted 15 
November 00, entered into force 25 December 03, art. 3(a). Article 3(a) 
of the Palermo Protocol states: `` `Trafficking in persons' shall mean 
the recruitment, transportation, transfer, harbouring or receipt of 
persons, by means of the threat or use of force or other forms of 
coercion, of abduction, of fraud, of deception, of the abuse of power 
or of a position of vulnerability or of the giving or receiving of 
payments or benefits to achieve the consent of a person having control 
over another person, for the purpose of exploitation. Exploitation 
shall include, at a minimum, the exploitation of the prostitution of 
others or other forms of sexual exploitation, forced labour or 
services, slavery or practices similar to slavery, servitude or the 
removal of organs.''
    \7\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2011--China,'' 27 
June 11, 122. According to this report, ``Male victims of trafficking 
and victims of forced labor--either male or female--did not receive 
regular protection services, but some were sent to hospitals for 
treatment of their medical needs and at least two victims received 
legal aid to gain financial compensation.'' CECC, 2009 Annual Report, 
10 October 09, 175.
    \8\ CECC, 2009 Annual Report, 10 October 09, 175; Office To Monitor 
and Combat Trafficking in Persons, U.S. Department of State, 
``Trafficking in Persons Report 2011--China,'' 27 June 11, 124. 
According to this report, ``The Ministry of Public Security issued 
orders to police departments to treat all women arrested for 
prostitution as victims of trafficking. It was not clear during the 
reporting period to what extent local police units complied with the 
order.''
    \9\ United Nations Office on Drugs and Crime, ``Human Trafficking 
FAQs,'' last visited 28 June 11.
    \10\ Ibid.
    \11\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2011--China,'' 27 
June 11, 122.
    \12\ Ibid., 124. Human Rights Watch, ``World Report 2011--North 
Korea,'' 24 January 11.
    \13\ ``Supreme People's Court Procuratorate Requests In-Depth 
Investigation of the Abduction and Sale of Children and Corruption'' 
[Zuigaojian yaoqiu shenjiu she guaimai ertong duzhi fubai], China Net, 
reprinted in China Daily, 4 June 11; Zhang Yan and He Dan, 
``Trafficking of Chinese Women on the Rise,'' China Daily, 24 January 
11. An official cited in this article reported that insufficient 
finances and manpower restrict police capacity to fight trafficking. 
For specific examples of official corruption reported during the 
Commission's 2011 reporting year, see ``Official Detained in `Slavery' 
Scandal,'' Shanghai Daily, reprinted in China Information Center, 23 
December 10; ``Ringleaders in Anhui Ordered To Surrender,'' South China 
Morning Post, 10 February 11.
    \14\ CECC, 2008 Annual Report, 31 October 08, 118. As documented 
and defined internationally, major forms of human trafficking include 
forced labor, bonded labor, involuntary domestic servitude, child 
soldiers, forced prostitution, children exploited for commercial sex, 
child sex tourism, and debt bondage and involuntary servitude among 
migrant laborers. Office To Monitor and Combat Trafficking in Persons, 
U.S. Department of State, ``Trafficking in Persons Report 2008--Major 
Forms of Trafficking in Persons,'' 4 June 08, 19-25.
    \15\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2011--China,'' 27 
June 11, 121.
    \16\ Zhang Yan and He Dan, ``Trafficking of Chinese Women on the 
Rise,'' China Daily, 24 January 11; Office To Monitor and Combat 
Trafficking in Persons, U.S. Department of State, ``Trafficking in 
Persons Report 2011--China,'' 27 June 11, 121. See also, for example, 
Mandy Zuo, ``Gang Busted for Trafficking Women to Congo,'' South China 
Morning Post, 4 December 10; U.S. Department of Justice, ``California 
Woman Sentenced to More Than Three Years in Prison for Human 
Trafficking Charges,'' 17 November 10.
    \17\ See, e.g., Office To Monitor and Combat Trafficking in 
Persons, U.S. Department of State, ``Trafficking in Persons Report 
2011--China,'' 27 June 11, 121. See also, for example, ``Women Tricked, 
Trafficked Into China,'' Radio Free Asia, 4 March 11; Palaung Women's 
Organization, ``Stolen Lives: Human Trafficking From Palaung Areas of 
Burma to China,'' 9 June 11.
    \18\ See, e.g., ``Mentally Disabled Individuals Sold by Orphanage 
as `Indentured Laborers,' Ate From the Same Bowls as Dogs'' 
[Zhizhangzhe bei shouyangsuo maiwei ``baoshengong'' yu gou tong shi 
yiguo mian], China Economic Net, reprinted in QQ News, 13 December 10; 
Zhang Xuanchen, ``Former Homeless Shelter Official Detained on Human 
Trafficking Allegations,'' Shanghai Daily, 22 December 10; Du Guangli, 
``Mentally Disabled Workers in Shaanxi Illicit Brick Kiln Face Aid 
Puzzle'' [Shanxi hei zhuanyao zhizhang gong mianlin jiuzhu miju], 
Phoenix Net, 28 January 11.
    \19\ See, e.g., Office To Monitor and Combat Trafficking in 
Persons, U.S. Department of State, ``Trafficking in Persons Report 
2011--China,'' 27 June 11, 123. According to this report, ``[T]he 
Chinese government did not release statistics related to forced labor 
of men.''
    \20\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the UN Convention 
Against Transnational Organized Crime, adopted 15 November 00, entered 
into force 25 December 03, art. 3.
    \21\ Zhang Yan and He Dan, ``Trafficking of Chinese Women on the 
Rise,'' China Daily, 24 January 11.
    \22\ Chinese Academy of Social Sciences, ``Difficulty Finding a 
Wife in 10 Years: 1 Out of Every 5 Men To Be a Bare Branch'' [10 nian 
zhihou quqi nan, 5 ge nanren zhong jiuyou 1 ge guanggun], 27 January 
10. According to the January 2010 Chinese Academy of Social Sciences 
study, by 2020, the number of Chinese males of marriageable age may 
exceed the number of Chinese females of marriageable age by 30 to 40 
million.
    \23\ Mikhail Lipatov et al., ``Economics, Cultural Transmission, 
and the Dynamics of the Sex Ratio at Birth in China,'' Proceedings of 
the National Academy of Sciences of the United States of America, Vol. 
105, No. 49 (December 2008), 19171. According to this study, ``The root 
of the [sex ratio] problem lies in a 2,500-year-old culture of son 
preference.'' Wei Xing Zhu et al., ``China's Excess Males, Sex 
Selective Abortion and One Child Policy: Analysis of Data From 2005 
National Intercensus Survey,'' British Medical Journal, 9 April 09, 4-
5.
    \24\ Kathleen E. McLaughlin, ``Borderland: Sex Trafficking on the 
China-Myanmar Border,'' Global Post, 26 October 10; ``China's Gender 
Imbalance,'' World Press, 11 January 11; ``China Gender Gap Fuelling 
Human Trafficking: Report,'' Agence France-Presse, reprinted in China 
Post, 22 September 10; Elizabeth Lee, ``Rights Activists Say China's 
Gender Ratio Contributes to Human Trafficking,'' Voice of America, 24 
January 11; ``Police Rescue Hundreds of Women, Children Kidnapped in SW 
China,'' People's Daily, 22 December 10.
    \25\ ``Chinese Women Taught To Avoid People-Traffickers,'' Xinhua, 
reprinted in China Daily, 8 March 10.
    \26\ Kathleen E. McLaughlin, ``Borderland: Sex Trafficking on the 
China-Myanmar Border,'' Global Post, 26 October 10; ``Women Tricked, 
Trafficked Into China,'' Radio Free Asia, 4 March 11.
    \27\ Zhang Xuanchen, ``Former Homeless Shelter Official Detained on 
Human Trafficking Allegations,'' Shanghai Daily, 22 December 10.
    \28\ ``Sweatshop Allegedly Abuses Mentally Ill,'' Global Times, 14 
December 10. ``Mentally Disabled Individuals Sold by Orphanage as 
Indentured Laborers'' [Zhizhangzhe bei shouyangsuo maiwei 
``baoshengong'' yu gou tong shi yiguo mian], China Economic Net, 13 
December 10.
    \29\ Du Guangli, ``Mentally Disabled Workers in Shaanxi Illicit 
Brick Kiln Face Aid Puzzle'' [Shanxi hei zhuanyao zhizhang gong mianlin 
jiuzhu miju], Phoenix Net, 28 January 11.
    \30\ Ibid.
    \31\ ``Response to: `Students With 9 Years of Compulsory Education 
Still Pick Cotton? ' '' [Huifu neirong: ``jiunian yiwu jiaoyu xuesheng 
hai zai shi mianhua ma? ''], Xinhe (Toqsu) County Message Board, 
reprinted in Xinhe (Toqsu) County People's Government, 18 September 10; 
``Second Agricultural Division 29th Regiment's Legal Office Strengthens 
Legal and Safety Education During Period Students Pick Cotton'' [Nong 
er shi ershijiu tuan sifasuo jiaqiang xuesheng shi mian qijian fazhi 
anquan jiaoyu], Xinjiang Agricultural Information Portal, 4 October 10; 
Xu Jiang, Xinjiang Uyghur Autonomous Region Government, ``Wusu, 
Xinjiang No. 5 Central School Students Help Pick Cotton at 134 
Regiment'' [Wusushi wu zhong xuesheng dao yisansi tuan zhiyuan shi 
hua], 2 October 10. For recent Commission analyses on Xinjiang's work-
study programs, see ``Underage Students Continue To Pick Cotton in 
Xinjiang Work-Study Program,'' Congressional-Executive Commission on 
China, 8 December 10.
    \32\ Cui Jia et al., ``Saving Kidnapped Kids From Streets of 
Crime,'' China Daily, 26 May 11; ``Parents Blamed for Begging, 
Performing,'' Asia One News, 15 February 11; China Internet Information 
Center, ``Gov't Campaign Against Child Begging,'' 9 March 11; ``Blog 
Fights Child Trafficking,'' Xinhua, 9 February 11.
    \33\ ``Child Rented Out by Parents To Beg Was Forced To Eat 
Faeces,'' Asia One News, 27 February 11; Hu Zhanfen and Yang Jiang, 
``The Real Situation of China's Child Beggars: 10,000 Yuan To Resolve 
Unforeseen Circumstances'' [Zhongguo tonggai zhenxiang: chu shenme 
yiwai dou 1 wan yuan jiejue], Xinmin Weekly, reprinted in QQ News, 23 
February 11.
    \34\ ``Region Sentences Eight for Felonies,'' Xinhua, reprinted in 
China Daily, 17 August 11.
    \35\ Shao Wei, ``China's Xinjiang Region Aims To Get Stray Kids 
Back Home,'' China Daily, 23 April 11.
    \36\ ``China's Top Legislature Ends Bimonthly Session, Adopts Tort 
Law,'' Xinhua, 26 December 09; UN Protocol to Prevent, Suppress and 
Punish Trafficking in Persons, Especially Women and Children, 
Supplementing the UN Convention Against Transnational Organized Crime, 
adopted 15 November 00, entered into force 25 December 03, art. 3(a).
    \37\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, effective 1 October 97, amended 14 March 97, 25 December 99, 
31 August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 
06, 28 February 09, 25 February 11, art. 244; Eighth Amendment to the 
Criminal Law of the People's Republic of China [Zhonghua renmin 
gongheguo xingfa xiuzheng'an (ba)], issued 25 February 11, provision 
38.
    \38\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the UN Convention 
Against Transnational Organized Crime, adopted 15 November 00, entered 
into force 25 December 03, art. 3(a).
    \39\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, effective 1 October 97, art. 244; PRC Criminal Law, passed 1 
July 79, effective 1 October 97, amended 14 March 97, 25 December 99, 
31 August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 
06, 28 February 09, 25 February 11, art. 244.
    \40\ Topics that need to be addressed in domestic legislation to 
bring it into compliance with the Palermo Protocol, include protection 
and rehabilitation of victims of trafficking (see Palermo Protocol art. 
6.3), non-physical forms of coercion into the legal definition of 
trafficking (see Palermo Protocol art. 3(a)), commercial sexual 
exploitation of minors (see Palermo Protocol art. 3(c and d)), and 
trafficking of men (see Palermo Protocol art. 3(a)). See UN Protocol to 
Prevent, Suppress and Punish Trafficking in Persons, Especially Women 
and Children, Supplementing the UN Convention Against Transnational 
Organized Crime (Palermo Protocol), adopted 15 November 00, entered 
into force 25 December 03; Office To Monitor and Combat Trafficking in 
Persons, U.S. Department of State, ``Trafficking in Persons Report 
2011--China,'' 27 June 11, 122.
    \41\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, effective 1 October 97, amended 14 March 97, 25 December 99, 
31 August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 
06, 28 February 09, 25 February 11. The previous language for Article 
244 appeared in the 2002 amendment and stated, ``Where an employer, in 
violation of the laws and regulations on labour administration, compels 
its employees to work by restricting their personal freedom, if the 
circumstances are serious, the persons who are directly responsible for 
the offence shall be sentenced to fixed-term imprisonment of not more 
than three years or criminal detention and shall also, or shall only, 
be fined.'' The revised language of Art. 244 states, ``Whoever forces 
another to work by violence, threats or restriction of personal freedom 
shall be sentenced to not more than three years fixed-term imprisonment 
or criminal detention, and shall also, or shall only, be fined. If the 
circumstances are serious, he shall be sentenced to not less than three 
years and not more than seven years fixed-term imprisonment and shall 
also be fined. Whoever is aware of a person committing the crime in the 
previous paragraph and recruits or transports personnel for him, or 
otherwise aids forced labour shall be punished according to the 
preceding paragraph. Where a unit commits the crimes in the two 
preceding paragraphs, it shall be fined, and the persons who are 
directly responsible for the crime shall be punished according to 
provisions in paragraph one.''
    \42\ Ibid., art. 240.
    \43\ Ibid., art 244.
    \44\ International Organization for Migration, ``IOM, China Improve 
Support to Victims of Human Trafficking,'' 10 December 10; 
International Organization for Migration, ``IOM and China Work To 
Protect, Assist Victims of Trafficking,'' 15 March 11.
    \45\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2011--China,'' 27 
June 11, 124.
    \46\ ``Vietnam and China Sign Pack [sic] on Human Trafficking,'' 
Viet Nam News, 16 September 10.
    \47\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2011--China,'' 27 
June 11, 125.
    \48\ Ibid., 121,124.
    \49\ Ibid., 122.
    \50\ Ibid.
    \51\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2010--China,'' 14 
June 10, 113.
    \52\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2011--China,'' 27 
June 11, 122.
    \53\ ``Highlights of Work Report of China's Supreme People's 
Procuratorate,'' Xinhua, 11 March 11.
    \54\ ``Highlights of Work Report of China's Supreme People's 
Procuratorate,'' Xinhua, 11 March 10.
    \55\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2011--China,'' 27 
June 11, 121. For information on the significance of the tier 
placements see, Office To Monitor and Combat Trafficking in Persons, 
U.S. Department of State, ``Trafficking in Persons Report 2011--Tier 
Placements,'' 27 June 11. According to the U.S. Department of State, 
countries placed on the Tier 2 Watch List are ``countries whose 
governments do not fully comply with the [Trafficking Victim Protection 
Act's] minimum standards, but are making significant efforts to bring 
themselves into compliance with those standards AND: a) The absolute 
number of victims of severe forms of trafficking is very significant or 
is significantly increasing; b)There is a failure to provide evidence 
of increasing efforts to combat severe forms of trafficking in persons 
from the previous year; or c) The determination that a country is 
making significant efforts to bring itself into compliance with minimum 
standards was based on commitments by the country to take additional 
future steps over the next year.''
    \56\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2011--China,'' 27 
June 11, 121.
    \57\ Huang Jingjing, ``Blog Fights Child Trafficking,'' Global 
Times, 9 February 11.
    \58\ Xu Chi, ``Six Children Rescued in Beggar Campaign,'' Shanghai 
Daily, 10 February 11; ``Microblogs Save Abducted Children,'' China 
Daily, reprinted in Xinhua, 15 February 11. According to the China 
Daily report, ``Various government agencies have gotten involved. The 
police went on the micro blog, followed the campaign and rescued the 
six children. Civil affairs authorities arranged children's DNA tests 
to aid in identification. Several non-governmental organizations have 
also launched projects to help begging children.''
    \59\ Ng Tze-wei, ``Beggar Children Rescued in Net Drive, Online 
Campaign Raises Privacy Issues,'' South China Morning Post, 10 February 
11; ``Yu Jianrong's Anti-trafficking Stirs Debate--The People Call for 
Public Clarification'' [Yu jianrong daguai yin zhengyi, minzhong yuqing 
gongkai chengqing], Radio Free Asia, 9 February 11.
    \60\ ``Child Beggar Raid Raises Doubts About Campaign,'' Shanghai 
Daily, 8 February 11.
    \61\ Ibid.; ``Online Effort To Save China's Kidnapped Children Is 
Flawed,'' CNN, 14 February 11; ``Six Children Rescued in Beggar 
Campaign,'' Shanghai Daily, 10 February 11.

                                 <all>

</pre></body></html>
